                              TIRNO-00-D-00024
                      Supplemental Report on Audit of
                 Contractor’s Fiscal Year 2000 Incurred Costs

                                     March 2005

                       Reference Number: 2005-1C-057




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            March 29, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-00-D-00024 Supplemental Report on Audit of
                              Contractor’s Fiscal Year 2000 Incurred Costs
                              (Audit #20051C0214)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s June 27, 2001,
       certified final indirect cost rate proposal and related books and records for the
       reimbursement of the contractor’s Fiscal Year 2000 incurred costs. The purpose of the
       examination was to determine the allowability and allocability of direct and indirect costs
       and to recommend Contracting Officer-determined indirect cost rates for
       January 1, 2000, through December 29, 2000. The proposed rates apply primarily to
       flexibly priced contracts.
       The DCAA stated this supplemental report replaces its initial report in its entirety and
       incorporates the results of three assist audits. This report specifically addresses the
       unsupported/questioned costs reported previously.
       The DCAA stated the contractor’s indirect rates are not acceptable as proposed.
       However, claimed direct costs are acceptable and provisionally approved pending final
       acceptance. The DCAA also stated the proposed Cost of Money Factors is not
       acceptable as proposed. Additionally, the DCAA believes the questioned indirect costs
       are subject to the penalties provided in Federal Acquisition Regulation 42.709.
       The DCAA opined that the contractor is not in compliance with Cost Accounting
       Standard (CAS) 410, Allocation of Business Unit General and Administrative expenses,
       and CAS 420, Accounting for Independent Research and Development and Bid and
       Proposal costs. The DCAA qualified its audit report pending resolution of these
                                             2

potential CAS violations. Also, the results of all assist audits for the subcontractor costs
have not been received.
The DCAA recommends it be given the opportunity to review any additional supporting
data provided by the contractor to substantiate the questioned costs and be invited to
attend the negotiation conference.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
